           STATUTORY AND ADMINISTRATIVE
                 RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific re-
quirements for semiannual reports to be made to the Chairman for transmittal to the Con-
gress. A selection of other statutory and administrative reporting and enforcement respon-
sibilities and authorities of the Office of Inspector General (OIG) are listed below:

                    OIG AUDIT AND MANAGEMENT REVIEW
Public Law (P.L.) 97-255    Federal Managers’ Financial Integrity Act of 1982
P.L.          1041-34       Debt Collection Improvement Act of 1996
P.L.          101-576       Chief Financial Officers Act of 1990
P.L.          102-486       Energy Policy Act of 1992
P.L.          103-62        Government Performance and Results Act of 1993
P.L.          103-355       Federal Acquisition Streamlining Act of 1994
P.L.          103-356       Government Management Reform Act of 1994
P.L.          104-106       Information Technology Management Reform Act of 1996
P.L.          104-208       Federal Financial Management Improvement Act of 1996
P.L.          107-289       Accountability of Tax Dollars Act of 2002
P.L.          107-347       Federal Information Security Management Act of 2002
General Accounting Office Government Auditing Standards

             CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES
Title 5                     United States Code, section 552a
Title 18                    United States Code, sections on crime and criminal
                            procedures as they pertain to OIG’s oversight of departmental
                            programs and employee misconduct
Title 31                    United States Code, section 3729 et seq., the False Claims Act
                                                                     ig
                                                April 2004 SemiAnnual Report




                                           TABLE OF CONTENTS
                                                                                                                                             Page

COMMISSION’S TOP MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . .                                                                 1
 The President’s Management Agenda . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 1
 Management Challenge: Competitive Sourcing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                        2
 Management Challenge: Improved Financial Performance . . . . . . . . . . . . . . . . . . . . .                                                    2
 Management Challenge: Budget and Performance Integration . . . . . . . . . . . . . . . . . .                                                      3
 Management Challenge: Expanded Electronic Government . . . . . . . . . . . . . . . . . . . . .                                                    4
 Management Challenge: Strategic Management of Human Capital . . . . . . . . . . . . .                                                             6

COMMISSION’S ORGANIZATIONAL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . . .                                                             8

COMMISSION PROFILE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          9

THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   12
Audit Follow--up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       13
 Audit of the U.S. International Trade Commission’s Financial Management
   System Control, OIG-AR-02-03 (July 24, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                        13
 Evaluation of the U.S. International Trade Commission’s Fiscal Year 2003
   Information Security Program and Practices, OIG-AR-03-03
   (September 22, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  13
 Evaluation of the Commission’s Travel Program, OIG-AR-03-02
   (September 30, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  13
 Evaluation of USITC’s Records Management, OIG-AR-05-00
   (March 7, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             14

INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Actions on Prior Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
    U.S. International Trade Commission’s Occupant Emergency Program,
      Inspection Report OIG-IR-01-03 (March 28, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . 15

INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16




                                                                          i
                                                                   ig
                                               April 2004 SemiAnnual Report




                            TABLE OF CONTENTS-Continued
                                                                                                                                         Page


OTHER ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               17
 Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         17
 General Accounting Office (GAO) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       17
 Peer Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17
 Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      17
 Management Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 19
 Special Recognition -- Award for Excellence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             20
 IG Act 25th Anniversary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               21

REPORTING REQUIREMENTS INDEX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

TABLE 1 AUDIT REPORTS WITH QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . 24

TABLE 2 AUDIT REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26




                                                                       ii
                                         ig
                            April 2004 SemiAnnual Report




                     COMMISSION’S TOP
                  MANAGEMENT CHALLENGES
We discuss the Commission’s management challenges within the framework of the
President’s Management Agenda (PMA). The “Top Management Challenges” facing the
Commission as identified by the OIG—as well as recent OIG activities relating to each
challenge—are discussed below. Through audits and inspections, the OIG has been helping
the Commission to address these challenges.

                  The President’s Management Agenda
In summer 2001, the President announced the PMA that included five somewhat
interrelated Government-wide initiatives: (1) Competitive Sourcing, (2) Improved
Financial Performance, (3) Budget and Performance Integration, (4) Expanded Electronic
Government, and (5) Strategic Management of Human Capital. The Executive Branch
Management Scorecard tracks how well the departments and major agencies are executing
the five initiatives. Using a Stoplight Scoring System, the scorecard employs a simple
grading system:
       j Green for success,
       j Yellow for mixed results, and
       j Red for unsatisfactory.
OMB assesses agency “progress” against agreed upon deliverables and time lines
established for the five initiatives as follows:
       j Green: Implementation is proceeding according to plans agreed upon with the
         agency;
       j Yellow: Some slippage or other issues require the agency to adjust in order to
         timely achieve the initiative objectives; and
       j Red: The initiative is in serious jeopardy, and the agency likely will not realize
         objectives absent significant management intervention.
Because the Commission was not among the 24 PMA agencies and has not established
PMA deliverables and time lines, neither the Commission nor the OIG has attempted to
assess its PMA progress using the Stoplight Scoring System. However, the Commission’s
FY 2004 and FY 2005 Budget Justifications, as well as its strategic planning documents,
expressed the Commission’s commitment to the spirit of the five PMA initiatives. OIG work
addressing the Commission’s adherence to that spirit is discussed below.

                                            1
                                          ig
                             April 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
Management Challenge: Competitive Sourcing. To improve the performance and
efficiency of activities that are commercial in nature, the PMA calls for departments and
agencies to compare their commercial activities with those of the private sector and
determine whether the private sector or government employees perform the activity. The
intended outcome is better service at a lower price. Thus far, few agencies are viewed as
having progressed from red.
The Commission has competitively contracted for information technology services, certain
editing and publishing services, mailroom and general labor services, cleaning and
building maintenance services, and security services. Private sector contract employees
comprise more than 10 percent of on-site personnel. In addition, other services are acquired
on an as-needed basis, such as virtually all equipment maintenance services, application
systems design and development, and certain audit and financial services. For example,
the OIG contracts for audit services. Also, the Commission has made competitive awards
for consulting services regarding information security, preparation of financial statements,
information technology (IT), and human capital planning.
The Commission has stated that its permanent staff is devoted to core agency investigative
functions and recurring support activities where the cost of outsourcing is less competitive.
In June 2003, the Commission issued its sixth comprehensive list of commercial activities
consistent with the Federal Activities Inventory Reform (FAIR) Act. The Commission has
said that it will continue to evaluate competitive alternatives and efficient service
contracting options to maximize efficiency and minimize cost. During this period, OIG
audits and inspections did not address competitive sourcing.
Management Challenge: Improved Financial Performance. This initiative is to
improve the quality and timeliness of financial information so that it can be used to reduce
waste, fraud, and abuse and manage federal programs more effectively. Most major
departments and agencies had unqualified opinions on their FY 2003 financial audit. Some
smaller agencies—including the Commission—received a waiver for presenting FY 2003
statements but subsequently will be required to prepare audited financial statements in
accordance with the Accountability of Tax Dollars Act of 2002 (Public Law 107-289). The
deadline for FY 2004 financial statements has been accelerated to November 15th—just
45 days after the end of the fiscal year.
In preparation for our audit of the FY 2004 statements, during the prior period we audited
the Commission’s financial management controls. Generally, the Commission’s accounting
records reasonably and fairly represented financial transactions and internal controls were
in place. We found no instances of fraud. However, we made four recommendations to

                                             2
                                          ig
                             April 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
strengthen internal controls related to property, cash, payroll, and accounts receivable. The
Assistant Inspector General for Audit has coordinated with the Director, Office of
Administration, and his staff to ensure that the Commission prepares financial statements
in accordance with OMB provisions. The Commission has contracted for assistance in
preparing the financial statements in FY 2004.
In FY 2003, the key components of the Commission’s total budget were personnel (73
percent) and rent (9 percent). Staffing levels have declined by 20 percent in the last 10
years, resulting largely from a 10 percent reduction-in-force in FY 1996 and decisions not
to fill certain vacancies. General administrative costs of the Office of Administration
(Human Resources, Facilities Management, and Finance) account for less than 7 percent
of total labor costs, and administrative staffing levels have been reduced by 45 percent
since FY 1996.
The Commission does not administer benefits and assistance payments programs and, as
such, would have few problems related to improper payments. Commission payments are
tied to Commission payroll and standard nonpersonnel costs such as space rental, travel,
training, services, supplies and equipment. Commission staff and senior managers monitor
execution of the Expenditure Plan, and the Office of Finance reviews payment procedures.
Also, the OIG has addressed aspects of payment procedures during the past three
information security audits (discussed on page 13) as well as the financial management
control audit (discussed on page 13).
Management Challenge: Budget and Performance Integration. The FY 2004
Federal Budget published ratings and detailed assessments of 234 federal programs—
approximately one-fifth of the entire federal government, representing $494 billion in
spending. When making budget decisions, OMB used the Performance Assessment Rating
Tool (PART) to view how well federal programs were performing and whether managers
were held accountable for performance. OMB plans to examine another 20 percent of
programs for FY 2005, and 100 percent of federal programs eventually. Performance
information will be used to (1) end or reform programs that either cannot demonstrate
positive results or are clearly failing and (2) put resources in programs that can prove they
are successful.
In prior Semiannual Reports to Congress, the OIG identified as one of the Commission’s
top management challenges: Performance Management, Measurement and Account-
ability. Since FY 2000, the Commission has accelerated efforts to link budgeting with
strategic planning. Budget formulation and execution activities have been restructured to
permit the allocation of virtually all costs to one of the five operations set forth in the

                                             3
                                          ig
                              April 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
Strategic Plan. Specifically, because personnel costs are more than 70 percent of total costs,
the Commission uses the labor cost reporting system to collect work years and cost
information and attribute it directly to strategic operations when feasible. Since FY 2001,
the Commission’s Budget Justification has presented cost and workload information in a
format that aligns direct and indirect costs with operations in the Strategic Plan.
Consistent with OMB guidance, the Commission combined its FY 2005 Budget
Justification and its Performance Plan for that fiscal year into a Performance Budget.
In the Commission’s budget, all indirect costs are allocated to the Commission’s five
operations with the exception of the OIG activities, certain labor and union activities, and
certain nonpersonnel costs. These are reported as unallocated indirect costs. The
Commission also presents data using a budget object classification methodology. Budget
integration efforts to date have allowed Commission managers more effectively to track
changes in workload and compare them to changes in cost. In doing so, the Commission is
able to determine whether resources are being allocated efficiently. The performance goals
and indicators in the Commission’s Annual Performance Plan also provide measures by
which the agency’s activities can be assessed. During this period, OIG audits and
inspections did not address budget and performance integration.
Management Challenge: Expanded Electronic Government. The Expanded
Electronic Government Initiative is designed to bring more services to the American citizen
over the Internet, make government more efficient, and improve information technology
(IT) management throughout the Executive Branch. Agencies continue to manage their IT
within a framework the Administration set up to avoid problems before investments are
made and taxpayer dollars lost. Agencies must demonstrate that their projects will provide
significant value to the mission, have a reasonable likelihood of success in meeting goals
and objectives, incorporate sufficient IT security, help achieve the PMA, and not duplicate
other investments.
Unfortunately, almost half the modernization projects have insufficient IT security, and the
Administration intends not to let any such projects go forward without it. There is also a
shortage of qualified project managers and IT architects to successfully manage federal IT
investments. Out of the $59 billion in IT investments, 771 projects representing $20.9
billion are currently on an “At-Risk List,” meaning they do not successfully demonstrate
sufficient potential for success through the business case, or do not adequately address IT
security.




                                              4
                                          ig
                              April 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

Prior Semiannual Reports to Congress identified as one of the Commission’s top
management challenges: Information Technology Management and Security. Every
Commission business process—import injury investigations, intellectual property-based
import investigations, research, trade information services, trade policy support, and
administration—depends on reliable and effective information systems and services. The
information that the Commission processes and generates is a valuable asset that
management must protect from loss, misuse, unauthorized access or modification.

The challenge the Commission faces in providing such protection is how to apply adequate
resources to ensure sufficient information security. Much of this information is in electronic
form, resides in a variety of hardware platforms and software applications, and is
accessible through various communications links. Although the Commission has avoided
work disruption or losses due to cyber-crime, the Commission’s data could be susceptible
both to physical and electronic threats.

Congress enacted the Government Information Security Reform Act (GISRA) in 2000, and
the Federal Information Security Management Act (FISMA) in 2002, to help federal
organizations protect government information resources. Each agency must centralize
information security management under its Chief Information Officer (CIO), as the
Commission did in FY 2003. The need for centralized information security management
results, in part, from the highly interconnected nature of modern information systems.

Agency Inspectors General are to conduct an annual independent evaluation of agency
information security programs and practices. Accordingly, we conducted comprehensive
audits of the Commission’s information security program in FY 2001, FY 2002, and FY
2003 (discussed on page 13). The FY 2003 evaluation completed during the prior period
found that the Commission must take further action in order to achieve consistency with
OMB Circular No. A-130, Appendix III Security of Federal Automated Information
Resources (February 1996). We identified 7 findings in the areas of management,
operational, and technical controls and made 18 recommendations to improve the
Commission’s IT security. Although problems persist, the Commission made sufficient
progress in addressing them that they neither in part nor in sum constitute a material
weakness. In addition to information security measures, the Commission has committed
significant resources to electronic government initiatives.

In FY 2003, the Commission replaced the original Electronic Document Information
System (EDIS) with a new system that has increased functionality and promises
significant cost savings to external users. If funding is available, this effort—to be

                                              5
                                                    ig
                                    April 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

completed by late FY 2006—will include development of a new capability for providing
secure Web access to non-public data by specific authorized external customers. In FY
2003, the Commission also replaced its local area network. These initiatives are part of the
Commission’s Information Resource Management (IRM) Strategic Plan. Consistent with
this plan, IT projects are evaluated and prioritized in accordance with their contribution
to the agency’s overall Strategic Plan and the meeting of performance goals.

Management Challenge: Strategic Management of Human Capital. Facing
substantial prospective retirements, agencies must hire and retain people with needed
skills and hold them accountable for serving customers and stakeholders. OMB considered
20 agencies “green” for progress, meaning they had plans in place to assess their workforce
and to use every tool at their disposal to recruit and retain the workforce they need to fulfill
their missions.

In prior Semiannual Reports to Congress the OIG identified as one of the Commission’s top
management challenges: Human Capital and Staffing. Last year, the OIG assessed the
Commission’s family-friendly programs1—those programs promoted by the Office of
Personnel Management’s Office of Family-Friendly Advocacy—in terms of their
compliance with statutory and executive level guidance and whether they meet the needs
of Commission employees.

As previously noted, human capital is the Commission’s largest resource, with salaries and
personnel benefits representing approximately 73 percent of the FY 2004 budget. The
Commission maintains an expert staff of professional international trade and
nomenclature analysts, investigators, attorneys, economists, computer specialists and
administrative support personnel. All employees are located at 500 E Street SW,
Washington, DC 20436. At the end of FY 2003, the Commission employed a total of 354.5
permanent employees.

Thirty-eight percent of the Commission’s workforce is eligible to retire in the next 5 years.
In addition to realigning resources as priorities shift, the Commission must streamline
human resource processes, review how it utilizes staff, and develop a better understanding
of the relationship between human resources and financial resources to ensure that the
Commission builds, deploys, and sustains a skilled, flexible, high-performing workforce.
For the remainder of FY 2004, the Commission continues to focus on:

     1 Assessment of the Commission’s Family-Friendly Programs, Inspection Report,OIG-IR-06-01 (March 27, 2002)
http://www.usitc.gov/oig/OIG-IR-06-01.pdf.


                                                        6
                                     ig
                         April 2004 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
    j Leadership and Knowledge Management. In FY 2003, the Commission
      surveyed employees regarding workplace issues. The Chairman and Vice
      Chairman conducted listening sessions with small groups of employees to obtain
      first-hand knowledge of workplace issues. During FY 2003, the Commission
      conducted a strategic workforce planning initiative to analyze employee skills
      and identify any current or future skills gaps. In FY 2004, the Commission has
      begun work on an agency-wide strategy for linking assessed skill gaps to
      training curriculum and development initiatives.
    j Workforce Planning and Deployment. Currently, the Commission is
      reviewing position management to improve organizational effectiveness and
      align resources with workload and mission. During FY 2002, in fulfillment of the
      requirements of the Clinger-Cohen Act, the Commission established the CIO
      position. During FY 2003, the Commission realigned its IT resources better to
      support its mission as well as the implementation of electronic business and
      other IT initiatives. Innovative realignment of resources and strategic position
      management should continue in FY 2004 as the Commission redeploys existing
      resources to meet the surge in workload resulting from sunset investigations.
    j Strategic Alignment. During FY 2004, the Commission has begun work on a
      human capital management plan that establishes human capital goals and
      objectives that link to the Commission’s Strategic Plan. Taking a long view, the
      Commission will reflect how human capital supports mission achievement.
      Beginning in FY 2004, the Commission will move towards emphasizing
      performance-based accountability for senior managers.




                                        7
                                                                                                  ig
                                                                         April 2004 SemiAnnual Report




                                              COMMISSION’S ORGANIZATIONAL STRUCTURE

                                                        U.S. International Trade Commission




                                                                                     Chairman
                                                                                  COMMISSION




 Office of the          Office of the                                     Office of                  Chief                 Office of              Office of the           Office of
                                                Office of the                                                                                                              Equal
Administrative           General                Director of               External                Information           the Director of            Inspector
 Law Judges              Counsel                                          Relations                  Officer            Administration              General              Employment
                                                Operations                                                                                                               Opportunity

                                                                          Trade Remedy
                                                                         Assistance Office                                                    Employee
                                                                                                                                             Development



 Office of           Office of               Office of              Office of            Deputy CIO              Deputy                Office of                               Office of
Economics                                                              the                  for                 CIO for                 Human                    Office of     Facilities
                     Industries           Investigations                                                                                                         Finance
                                                                    Secretary            Management             Planning               Resources                              Management




                            Office of                  Office of
                          Tariff Affairs             Unfair Import             Office of                   Office of
                           and Trade                                           Publishing                Information
                                                     Investigations
                          Agreements                                                                       Services

             Budget Committee                                                                                     Information Resources Management Steering Committee (IRMSC)
                Authority: Adm. Order 00-06, dated 7/26/00                                                           Authority: Adm. Order 00-08, dated 8/25/00

                                                                                                                  Labor-Management Occupational Safety and Health Committee
             Directives Review Committee                                                                            Authority: Adm. Order 02-03, dated 1/10/02
                 Authority: CO71-U-004, dated 7/11/97

             Document Imaging Oversight Committee (DIOC)                                                          Labor-Management Partnership Council
                Authority: Adm. Order 96-06, dated 3/15/96                                                          Authority: Adm. Order 03-05, dated 2/11/03

             Executive Resources Board (ERB)                                                                      Strategic Planning Committee (SPC)
                Authority: Adm. Order 03-09, dated 6/10/03                                                           Authority: Adm. Order 02-08, dated 5/3/02

             Incentive Awards Committee (IAC)                                                                     Senior Executive Service Performance Review Board (PRB)
                 Authority: Adm. Order 92-27, dated 7/2/92 and Adm. Order 97-02, dated 10/15/96                     Authority: Adm. Order 02-09, dated 7/15/02


                                                                                                     8
                                         ig
                            April 2004 SemiAnnual Report




                        COMMISSION PROFILE
                          http://www.usitc.gov
The Commission is an independent, nonpartisan, quasi-judicial federal agency established
by Congress to provide trade expertise to both the Legislative and Executive Branches of
government. Its mission is to: administer U.S. trade remedy laws within its mandate in a
fair and objective manner; provide the President, the U.S. Trade Representative (USTR)
and the Congress with independent, quality analysis, information, and support on matters
of tariffs and international trade and competitiveness; and maintain the Harmonized Tariff
Schedule of the U.S. In so doing, the Commission serves the public by implementing U.S.
law and contributing to the development of sound and informed U.S. trade policy. Major
Commission activities include:
       j Import Injury Investigations-The Commission makes determinations in a
         variety of import injury investigations, primarily antidumping and
         countervailing duty (AD/CVD) investigations concerning the effects of unfairly
         traded imports on a U.S. industry.
       j Intellectual Property-Based Investigations-The Commission adjudicates
         complaints brought by domestic industries under section 337 of the Tariff Act
         of 1930 that allege infringement of U.S. intellectual property rights and other
         unfair methods of competition by imported goods.
       j Research-The Commission’s research program consists of probable economic
         effects investigations under section 131 of the Trade Act of 1974 and section
         2104 of the Trade Act of 2002; analysis of trade and competitiveness issues
         under section 332 of the Tariff Act of 1930; and independent assessments on a
         wide range of emerging trade issues.
       j Trade Information Services-The Commission’s trade information services
         include such activities as legislative reports; maintenance of the Harmonized
         Tariff Schedule; Schedule XX; U.S. Schedule of Services Commitments under
         the General Agreement on Tariffs and Trade/World Trade Organization;
         preparation of U.S. submissions to the Integrated Database of the World Trade
         Organization; and certain other information gathering, processing, and
         dissemination activities.
       j Trade Policy Support-The Commission supports the formulation of U.S.
         trade policy, providing objective input to both the Executive Branch and the
         Congress on the basis of the distinctive expertise of its staff.

                                            9
                                         ig
                             April 2004 SemiAnnual Report




COMMISSION PROFILE—Continued
The Commission consists of six Commissioners, appointed by the President and confirmed
by the Senate, who serve one term of nine years, unless appointed to fill an unexpired term.
No more than three Commissioners may be of the same political party. The Chairman and
Vice Chairman are designated by the President and serve a 2-year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.
The current Commissioners are Deanna Tanner Okun, Jennifer A. Hillman, Marcia E.
Miller, Stephen Koplan, Charlotte R. Lane, and Daniel R. Pearson. The current Chairman
is Deanna Tanner Okun and the current Vice Chairman is Jennifer A. Hillman.
In FY 2004, the Commission has an estimated $58.7 million in available funds and a
staffing plan for 397.5 permanent positions and 9 term/temporary positions. All employees
are located in one building at 500 E Street, SW, Washington, DC.




                                            10
                                             ig
                              April 2004 SemiAnnual Report




              THE OFFICE OF INSPECTOR GENERAL
                     http://www.usitc.gov/oig
The Commission established the OIG pursuant to the 1988 amendments to the Inspector
General Act. The Inspector General reports directly to the Chairman. The Inspector
General is responsible for directing and carrying out audits, investigations, and inspections
relating to Commission programs and operations. The Inspector General also provides
comments and recommendations on proposed legislation, regulations, and procedures as
to their economy, efficiency and effectiveness.
As shown in the organizational chart, the OIG had three full-time positions and one
part-time position in FY 2004.
For FY 2004, the OIG was allocated 3.5 staff years. This provided for three full-time
positions (Inspector General, Assistant Inspector General for Audit, and Paralegal
Specialist) and one part-time position (Counsel to the Inspector General). The Commission
also allocated $230,000 for OIG contracted audit and review services for FY 2004.




                          Office of Inspector General: Organization
  Full-time

          Inspector General



                                                                               Part-time

    Assistant Inspector
                              Paralegal Specialist                       Counsel to the
     General for Audit
                                                                       Inspector General




                                               11
                                         ig
                            April 2004 SemiAnnual Report




                                      AUDITS
During this period no final audit reports were issued.
After completing field work, the OIG provided the agency with a draft report
recommending improvements in the Commission’s discretionary document and mail
distribution program. An exit conference was held in March, and we anticipate receiving
official comments and issuing the final report in May.
In February, we distributed to the Commission, Office Directors and Division Chiefs an
updated draft of the Office of Inspector General’s Biennial Plan for fiscal years 2004 and
2005. The Plan discussed future audits and inspections addressing each of the five
Presidential Management Agenda initiatives.
Also during this period, the Assistant Inspector General for Audit (AIGA) coordinated with
the Director of Administration/Chief Information Officer and his staff to prepare for our
upcoming audits required by the Accountability of Tax Dollars Act (financial statement
audit) and the Federal Information Security Management Act (information security audit).
In her role as Contracting Officer’s Technical Representative, the AIGA worked with the
Contracting Officer to ensure that audit service contracts will be competed and awarded
timely.




                                           12
                                         ig
                             April 2004 SemiAnnual Report




                            AUDIT FOLLOW-UP
Pending recommended actions remain open on four audits reported in the previous
semiannual report.
Audit of the U.S. International Trade Commission’s Financial Management
System Control, OIG-AR-02-03 (July 24, 2003)
http://www.usitc.gov/oig/OIG-AR-02-03.pdf
The Commission agreed with all three recommendations, implemented two, but had not
implemented one:
       j Revise Directive 3550.3 and Form 110 to improve controls over fixed assets and
         accountable property.
Evaluation of the U.S. International Trade Commission’s Fiscal Year 2003
Information Security Program and Practices, OIG-AR-03-03 (September 22, 2003)
http://www.usitc.gov/oig/OIG-AR-03-03.pdf
Our annual independent audit of the Commission’s information security program and
practices resulted in 18 recommendations, all of which were agreed to by management. The
Commission completed action on 7 of the 18 recommendations and intends to address the
remaining 11 by the end of calendar year 2004.
Due to the sensitive content, we have limited distribution of this and prior annual reports.
Evaluation of the Commission’s Travel Program, OIG-AR-03-02
(September 30, 2002) http://www.usitc.gov/oig/OIG-AR-03-02.pdf
The Commission agreed with all six recommendations, implemented five, but had not
implemented one:
       j Issue an Administrative Order directing supervisors to identify and
         communicate each cardholder’s planned travel in order to have the cardholder’s
         authorized charge limit modified accordingly.




                                            13
                                          ig
                              April 2004 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001)
http://www.usitc.gov/oig/OIG-AR-05-00.pdf
The Commission agreed with all 22 recommendations, implemented 21, but has yet to:
       j Identify records scanned by EDIS so they can be disposed.
The Commission has implemented EDIS-2 and has been working with the National
Archives and Records Administration. Certain document types now can be filed in
electronic form. Also, in some instances parties are notified by e-mail of the availability of
certain documents through the electronic docket.




                                             14
                                         ig
                             April 2004 SemiAnnual Report




                                 INSPECTIONS
During this period we issued no inspection reports.


                        Actions on Prior Inspections
U.S. International Trade Commission’s Occupant Emergency Program,
Inspection Report, OIG-IR-01-03 (March 28, 2003)
http://www.usitc.gov/oig/OIG-IR-01-03.pdf
The OIG inspected the Commission’s Occupant Emergency Program (OEP) to determine
if it would adequately ensure the safety of Commission and other occupants at 500 E Street,
SW, in Washington, DC. In response to our suggestion that the Commission develop an
official building-wide OEP, on January 22, 2004, the Commission issued a purchase order
to produce the plan. On April 7, 2004, a draft plan was provided for review and comment
by the Commission and other occupying organizations as well as Boston Properties, the
landlord for the building.




                                           15
                                                     ig
                                       April 2004 SemiAnnual Report




                                        INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.


                                    Summary of Investigative Activity
During this reporting period, one new case was initiated, and one case was closed. A
summary of investigative activity is presented below.




        Case Workload                         Referrals Processed      Investigative Results
                                        Received                 21   Referrals for
 Open (10/31/03)                0
                                                                      Prosecution              0
 Initiated                      1       Referred to OIG
                                        Audit & Inspection            Referrals Declined
 Closed                         1       Divisions                0    for Prosecution          0

 Open (03/31/04)                0       Referred to Commission   1    Administrative
                                                                      Action                   1
                                        Referred to other
                                        Federal Agencies         0

                                        Evaluated but no
                                        Investigation
                                        Initiated                0




   2   Received from Hotline.


                                                        16
                                         ig
                             April 2004 SemiAnnual Report




                            OTHER ACTIVITIES

Regulatory Review
The Inspector General Act of 1978, as amended, 5 U.S.C., Appendix, Section 4(a)(2), (IG
Act) requires the OIG to review existing and proposed legislation and regulations and to
make recommendations concerning the impact of such legislation or regulations on the
economy and efficiency of programs and operations administered by the Commission.
The OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. No such procedures were submitted for OIG review
during this period.


General Accounting Office (GAO)
The IG Act states that each Inspector General shall give particular regard to the activities
of the Comptroller General of the United States with a view toward avoiding duplication
and ensuring effective coordination and cooperation. No GAO reviews regarding the
Commission’s activities were initiated or completed during this reporting period.


Peer Review
In January 2004, the OIG issued the final peer review report on the National Endowment
for the Humanities Office of Inspector General’s (NEH OIG) quality controls for its audit
function. The IG Act requires federal OIGs to conduct audits in accordance with the
Comptroller General’s Government Auditing Standards (GAO “Yellow Book”). The “Yellow
Book” calls for each federal statutory OIG to undergo a peer review every 3 years.
In March 2004, the Consumer Product Safety Commission (CPSC) OIG began a peer
review of the USITC OIG’s audit function.


Liaison Activities
The Inspector General is one of 28 DFE Inspectors General, who are members of the
Executive Council on Integrity and Efficiency (ECIE). Established by Executive Order
12805 on May 11, 1992, the ECIE is chaired by the Office of Management and Budget and,
in addition to the Inspectors General, includes representatives from the Office of Personnel
Management, the Office of Government Ethics, the Office of Special Counsel, and the
Federal Bureau of Investigations.

                                            17
                                         ig
                             April 2004 SemiAnnual Report




OTHER ACTIVITIES—Continued
The Inspector General also participates in activities sponsored by the President’s Council
on Integrity and Efficiency (PCIE), which consists primarily of the Presidentially appointed
Inspectors General. The ECIE and PCIE have identical functions and responsibilities to
promote integrity and efficiency and to detect and prevent fraud, waste and abuse in
federal programs.
On October 16, 2003, the Inspector General gave a presentation about the audit peer
review process at the Association of Inspectors General’s (AIG) Conference in New York
City. The Inspector General serves on the Board of the AIG, an organization where federal,
state and local OIGs share ideas on how to enhance their effectiveness and professionalism.
The Inspector General has served for 2 years as a member of the PCIE ECIE Human
Resources Committee on which he participated with other Inspectors General to develop
a pilot leadership development training program for OIG auditors, investigators, and other
professionals. On March 2, 2004, the Inspector General spoke about the Human Resources
Committee’s core competencies project at the Institute of Internal Auditor’s Washington
Chapter Annual Conference in Arlington, Virginia. He also co-authored “Core
Competencies: A Driving Force for Organizational Excellence,” an article that appeared in
the Fall/Winter 2003 issue of The Journal of Public Inquiry that may be found at
http://www.ignet.gov/randp/fw03jpi.pdf.
The Inspector General has for more than 2 years volunteered as an occasional guest
instructor for the Inspectors General Auditor Training Institute (IGATI). As a Certified
Myers Briggs Type InstrumentR (MBTI) Professional, he facilitated a team building
workshop using the MBTI for multiple OIGs on January 16, 2004, in Rosslyn, Virginia.
The Assistant Inspector General for Audit (AIGA) is a member of the Financial Statement
Audit Network (FSAN) that anticipates potential changes and shares experiences related
to auditing their respective agencies’ financial statements.
On January 21, 2004, the Counsel to the Inspector General (OIG Counsel) was one of 30
OIG attorneys admitted to the U.S. Supreme Court, where subsequently they may litigate
cases involving their respective offices. Also active on the Council of Counsels to the
Inspectors General (CCIG), she supported two CCIG projects:




                                            18
                                         ig
                             April 2004 SemiAnnual Report




OTHER ACTIVITIES—Continued
       j Investigative Peer Review. When the PCIE adopted the Qualitative
         Assessment Review Guidelines for Federal Offices of Inspector General (January
         2004), several ECIE organizations—including the USITC OIG—volunteered to
         pilot the use of the guidelines for conducting investigative peer reviews within
         the ECIE as well. The USITC OIG Counsel contributed to the ECIE
         Investigative Peer Review Committee by preparing a draft legal memorandum
         on the applicability of Freedom of Information Act (FOIA) exemptions by which
         ECIE organizations might withhold case sensitive information from their peer
         reviewers.
       j Auditor Ethics Training. In support of IGATI, the OIG Counsel participated
         in a team that developed and taught “Ethics for Auditors.” Based on the
         successful pilot course, IGATI planned to offer two more sessions this fiscal year.
As a member of the Inter-agency Ethics Council, the OIG Counsel continued to provide a
monthly report to the Inter-agency Ethics Council on Federal Court cases involving ethics
issues. In addition, she attended the Annual Government Ethics Conference in New York
City.
In addition to her professional contributions to the federal OIG community, the OIG
Counsel is a volunteer tutor for a first grade elementary school student. The Commission
adopted Amidon Elementary School, a neighboring District of Columbia public school, for
which Commission employees voluntarily tutor students in a variety of subjects.


Management Assistance
Acting for the Inspector General, the OIG Counsel attended the Chairman’s senior staff
meeting where she discussed management’s responsibility for informing staff about Hatch
Act (5 U.S.C. Sections 7321-7326) requirements. After she provided the General Counsel
with the Office of Special Counsel’s recent Hatch Act opinions, the General Counsel, as the
Designated Agency Ethics Official, issued a memorandum to all agency employees
regarding permissible political activities by federal employees.




                                            19
                                                        ig
                                       April 2004 SemiAnnual Report




OTHER ACTIVITIES—Continued


Special Recognition – Award for Excellence
At its Annual Award Ceremony on October 15, 2003, the ECIE recognized one of our
projects. Assistant Inspector General for Audit Jean Smith, Counsel to the Inspector
General Jennifer Cron Hepler, and Paralegal Specialist Karen Swindell received a group
“Award for Excellence” with the following citation:



“In recognition of an outstanding, coordi-
nated joint audit and investigation that
enhanced the integrity, effectiveness, and
efficiency of the U.S. International Trade
Commission’s Travel Program.”




                                                                    Pictured with their awards are, from left to right,
                                                                    Jean Smith, Jennifer Hepler, and Karen Swindell.




Although the ECIE’s award recognized only the OIG’s3 work, we acknowledge and
appreciate the significant contribution made by the Chairman, the Director of Operations,
the Director of Administration, the Director of Finance and others to identify and resolve
travel-related issues. In particular, the Travel and Transportation Management Officer’s
efforts were recognized by a separate award bestowed by the U.S. General Services
Administration.



     3 The OIG work that formed the basis for the award was discussed in our Semiannual Reports to the Congress issued for
October 2002 (see pages 12-13, 22) http://www.usitc.gov/oig/OIG-SA-10-02.pdf and October 2003 (see pages 20-22)
http://www.usitc.gov/oig/OIG-SA-10-03.pdf.


                                                           20
                                            ig
                             April 2004 SemiAnnual Report




OTHER ACTIVITIES—Continued

IG Act 25th Anniversary
On October 14, 2003, the President of the United States met with the Inspectors General
to honor and recognize the 25th anniversary of the passage of the IG Act. He applauded
their dedication to combating fraud, waste and abuse and commended their vigilance to
remain “agents of positive change.”




                     Among the Inspectors General Meeting with the
                     President were Aletha Brown of the Equal Employ-
                     ment Opportunity Commission and Ken Clarke of
                     the U.S. International Trade Commission.




                                               21
                                         ig
                            April 2004 SemiAnnual Report




OTHER ACTIVITIES—Continued
On December 1, 2003, the President signed S.J.Res. 18, a Joint Congressional Resolution,
commending Inspectors General for their efforts to prevent and detect waste, fraud, abuse,
and mismanagement, and to promote economy, efficiency, and effectiveness in the Federal
government during the past 25 years.
On October 6, 2003, the Inspector General spoke to the Commission’s senior staff about the
history, mission, and emerging issues regarding Inspectors General. He also offered to
repeat the presentation at organizational component staff meetings.




                                           22
                                          ig
                            April 2004 SemiAnnual Report




              REPORTING REQUIREMENTS INDEX

The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports.

CITATION            REPORTING REQUIREMENTS                                             PAGE

Section 4(a)(2)     Recommendations concerning the impact of such legislation or
                    regulations on the economy and efficiency in the administration
                    of programs and operations administered or financed by the
                    Commission                                                           17

Section 5(a)(1)     Description of significant problems, abuses, and deficiencies
                    relating to the administration of programs and operations          None

Section 5(a)(2)     Description of the recommendations for corrective action made
                    with respect to significant problems, abuses, or deficiencies      None

Section 5(a)(3)     Identification of each significant recommendation described in
                    previous semiannual reports on which corrective action has not
                    been completed                                                     13-14

Section 5(a)(4)     Summary of matters referred to prosecutive authorities and the
                    prosecutions and convictions which have resulted                     16

Section 5(a)(5)     Summary of each report made to the head of the establishment
                    under which information or assistance was unreasonably refused     None

Section 5(a)(6)     Listing of each audit report                                         13

Section 5(a)(7)     Summary of each significant report                                 None

Section 5(a)(8)     Statistical tables showing Audit Reports-Questioned Costs            24

Section 5(a)(9)     Statistical tables showing Audit Reports-Funds Put to Better Use     25

Section 5(a)(10)    Summary of each audit report issued before the commencement of
                    the reporting period for which no management decision has been
                    made by the end of the reporting period                            None

Section 5(a)(11)    Description and explanation of the reasons for any significant
                    revised management decisions                                       None

Section 5(a)(12)    Information concerning any significant management decision
                    with which the Inspector General is in disagreement                None


                                             23
                                                         ig
                                        April 2004 SemiAnnual Report




                      Table 1
       AUDIT REPORTS WITH QUESTIONED COSTS4
                                                                                                      Dollar Value

                                                         Number of                    Questioned              Unsupported
                                                           Reports                         Costs                    Costs

A.        For which no management decision has
          been made by the commencement of the period               0                             0                         0

B.        Which were issued during the reporting period             0                             0                         0

          Subtotals (A+B)                                           0                             0                         0

C.        For which a management decision was made
          during the reporting period                               0                             0                         0

          (i)      Dollar value of
                   disallowed costs                                 0                             0                         0

          (ii)      Dollar value of costs
                    not disallowed                                  0                             0                         0

D.        For which no management decision has been
          made by the end of the reporting period                   0                             0                         0

E.        Reports for which no management decision was
          made within six months of issuance                        0                             0                         0




    4 The ITC OIG generally does not perform contract audits that are the basis for mandatory reporting of questioned and
unsupported costs.


                                                            24
                                                  ig
                                   April 2004 SemiAnnual Report




                      Table 2
      AUDIT REPORTS WITH RECOMMENDATIONS
         THAT FUNDS BE PUT TO BETTER USE
                                                                           Number of   Dollar
                                                                             Reports    Value

A.      For which no management decision has been made by
        the commencement of the period                                             0       0

B.      Which were issued during the reporting period                              0       0

Subtotals (A+B)                                                                    0       0

C.      For which a management decision was made during the reporting period       0       0

        (i)       Dollar value of recommendations that were
                  agreed to by management                                          0       0

        (ii)      Dollar value of recommendations that were
                  not agreed to by management                                      0       0

D.      For which no management decision has been made by the end of the
        reporting period                                                           0       0

E.      Reports for which no management decision was made within six
        months of issuance                                                         0       0




                                                     25
                                         ig
                             April 2004 SemiAnnual Report




                                   GLOSSARY
The following definitions apply to the terms used in this report.


Questioned Cost              means a cost that is questioned by the Office because of:
                             (1) an alleged violation of a provision of a law, regulation,
                             contract, grant, cooperative agreement, or other agreement or
                             document governing the expenditure of funds; (2) a
                             finding that, at the time of the audit, such cost is not
                             supported by adequate documentation; or (3) a finding
                             that the expenditure of funds for the intended purpose
                             is unnecessary or unreasonable.

Unsupported Cost             means a cost that is questioned by the Office because the
                             Office found that, at the time of the audit, such cost is not
                             supported by adequate documentation.

Disallowed Cost              means a questioned cost that management, in a management
                             decision, has sustained or agreed should not be charged to the
                             Government.

Recommendation that          means a recommendation by the Office that funds could be
funds be put to better       used more efficiently if management of an establishment
use                          took actions to implement and complete the recommendation,
                             including: (1) reduction in outlays; (2) deobligation of funds
                             from prgrams or operations; (3) withdrawal of interest
                             subsidy costs on loans or loan guarantees, insurance, or
                             bonds; (4) costs not incurred by implementing recommended
                             improvements related to the operations of the establishment,
                             a contractor or grantee; (5) avoidance of unnecessary
                             expenditures noted in preaward reviews of contract or grant
                             agreements; or (6) any other savings which are specifically
                             identified.




                                           26
                 ig
      April 2004 SemiAnnual Report




Special thanks to the Office of Publishing
    for the production of this report:




                   27
  If you suspect Fraud, Waste, Abuse, or other misconduct at the
       International Trade Commission, please contact us at:

                      IGHotline@usitc.gov
                               or
                  EthicsLine 1--800--500--0333
                               or
              http://www.usitc.gov/oig/oighot.htm

The EthicsLine is available 24 hours per day. The caller can remain
  anonymous. If you prefer, you may send written complaints to:

             U.S. International Trade Commission
                   Office of Inspector General
                             Room 515
                        500 E Street, S.W.
                     Washington, DC 20436

Federal employees are protected from reprisal under the provisions
of the Whistleblower Protection Act of 1989. For more information,
 see the MSPB publication entitled “Questions and Answers About
  Whistleblower Appeals”, which is available in the Main Library,
               the Office of Personnel, and the OIG.
